ur

IN THE SUPREME COURT OF THE UNITED STATES
JOHN C. NIMMER,

Case No. 20-

i

Petitioner,
O'

'C^ ^~-ryr- r..

Vs.
HON. MICHAEL G. HEAVICAN,
Chief Justice
of the Nebraska Supreme Court
in his official capacity;

MOTION FOR LEAVE TO FILE
IN FORMA PAUPERIS

(From the United States Court
of Appeals for the Eighth
Circuit)

HON. STEPHANIE F. STACY, Justice
of the Nebraska Supreme Court
in her official capacity;

HON. LINDSEY MILLER-LERMAN,
Justice of the Nebraska Supreme Court
Submitted by,
in her official capacity;
HON. WILLIAM B. CASSEL, Justice
of the Nebraska Supreme Court
in his official capacity!

John C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046
402-345-8040
Pro Se

HON. JONATHAN J. PAPIK, Justice
of the Nebraska Supreme Court
in his official capacity;
HON. JEFFREY J. FUNK, Justice
of the Nebraska Supreme Court
in his official capacity!

HON. JOHN R. FREUDENBERG, Justice
of the Nebraska Supreme Court
in his official capacity!
MARK A. WEBER, Counsel for Discipline
The petitioner asks leave to file the attached Petition for Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis. Petitioner has
previously been granted leave to proceed in forma pauperis in on July 5, 2019

1

*
. J

in Nimmer v. Heavican, et. al. 4'18_cv3123 (Dist. Neb) Filing 24 for
purposes of appealing to the 8th Circuit (Nimmer v. Heavican, et. al, 19-2426
(8th Cir.). Petitioner’s declaration in support of this motion is attached hereto
as Exhibit A.
CERTIFICATE OF FILING AND SERVICE
The undersigned certifies that on the date below he filed and served the
foregoing Motion for Leave to File In Forma Pauperis and attached
Declaration in Support via US mail, postage prepaid, as follows:
NE Attorney General
2115 State Capitol
Lincoln, NE 68509
Attn^ James Smith
(1 copy)

Clerk of the US Supreme Court
Washington, DC 20543
(Original only as per Court’s
April 15, 2020 Covid Order)
Dated this 13th day of August, 2020.

Respectfully Submitted,
JOHN C. NIMMER,
Petitioner,
X

/V1—
Jo
Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046-5783
402-590-9049 (new tel. #)
Pro Se Petitioner

2

DECLARATION IN SUPPORTOF MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS (Exhibit A)
I am the Petitioner in the above-entitled case. In support of my Motion to
Proceed In Forma Pauperis, I state that because of my poverty I am unable to
pay the costs of this case or to give security therefor, and I believe I am
entitled to redress.
1. For both you and your spouse estimate the average amount of money
received from each of the following sources during the past 12 months.
Adjust any amount that was received weekly, biweekly, quarterly,
semiannually, or annually to show the monthly rate. Use gross
amounts, that is, amounts before any deductions for taxes or
otherwise? RESPONSE: $2419.20/month (wife’s job). I have been
unemployed since 8/31/18.
2. List your employment history for the past two years, most recent first.
(Gross monthly payis before taxes or other deductions.)? RESPONSEDue to my license being revoked, I have not been able to practice law
since 8/31/18. Prior to that I was ill (ended up in hospitalization and
amputation surgery in 9/18) and not working for a month so I had no
income in 8/18.
3. List your spouse’s employment history for the past two years, most
recent employer first. (Gross monthly pay is before taxes or other
deductions.)? RESPONSE: Hillcrest Health for last year
($2419.20/month),‘ previously for 5 years Heritage Ridge
($2400/month).
4. How much cash do you and your spouse have? RESPONSE: $225
Below, state any money you or your spouse have in bank accounts or in
any other financial institution? RESPONSE-’ None
5. List the assets, and their values, which you own or your spouse own.
Do not list clothing and ordinary household furnishings? RESPONSE:
2015 Hyundai Elantra (wife’s car/titled in her name) $10,000 retail
value; $13,000 owed on it.
6. State every person, business, or organization owing you or your spouse
money, and the amount owed? RESPONSE: None
7. State the persons who rely on you or your spouse for support?
RESPONSE: None
8. Estimate the average monthly expenses of you and your family. Show
separately the amounts paid by your spouse. Adjust any payments that
are made weekly, biweekly, quarterly, or annually to show the monthly
rate? RESPONSE•’ All paid by spouse.
A. Payroll Taxes $250
B. Rent $735
C. Car Payment $440

3

D.
E.
F.
G.
H.
I.

Car Insurance $100
Phones (2) $120
Utilities $150
Gas/Car Maintenance $150
Groceries $400
Miscellaneous $200
Total: $2545
9. Do you expect any major changes to your monthly income or expenses
or in your assets or liabilities during the next 12 months?
RESPONSE: No
10. Have you paid - or will you be paying - an attorney any money for
services in connection with this case, including the completion of this
form? RESPONSE: No
11. Have you paid—or will you be paying—anyone other than an attorney
(such as a paralegal or a typist) any money for services in connection
with this case, including the completion of this form? RESPONSE:
Only de minimis copying and postage fees.
12. Provide any other information that will help explain why you cannot
pay the costs of this case? RESPONSE: I was rushed to the hospital on
9/14/18 and diagnosed with severe diabetes and infection, resulting in
a partial amputation. Basically I cannot perform any work involving
prolonged standing or walking. As for other employment, I have
applied for 3 to 5 jobs per week but because of the negative publicity
from the 8/31/18 disbarment (reported in the Omaha World Herald and
comes up on an online search) I have not been hired.
Pursuant to 28 USC 1746 the undersigned hereby declares, certifies,
verifies, and states under first-hand knowledge, under oath, and under
penalty of perjury under the laws of the United States of America the
foregoing Declaration In Support of Motion for Leave to File In Forma
Pauperis is true and correct to the best of his knowledge.
Dated this 13th day of August, 2020.
JOHN C. NIMMER,
Petitioner,
X

dj ft ^

John C. Nimmer
1429 S. Grandview Ave. #8
Papillion, NE 68046-5783
402-590-9049
Pro Se Petitioner

4

